1
•

V fl _ u (C

No.

n

AO "''w/

'v

L'—f

Supreme Court, U.S.
FILED

/
o

AUG 1 8 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

JUSTIN WOODARD, PRO-SE

PETITIONER

Vs.

NEW YORK STATE COURT OF APPEALS, et al. , RESPONDENT^ )
ON PETITION FOR A WRIT OF CERTIORARI TO

NEW YORK STATE APPELLATE DIVISION, 4TH JUDICIAL DEPT.
PETITION FOR WRIT OF CERTIORARI

JUSTIN WOODARD
EASTERN N.Y CORRECTIONAL FACILITY
BOX 338, NAPANOCH, NEW YORK, 12458
(845) 647-7400

fl

l

I
TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED
c
LIST OF PARTIES

ii

RELATED CASES

ii

TABLE OF AUTHORITIES

iii-V

OPINIONS BELOW

1

JURISDICTION

2

STATEMENT OF THE CASE

2-13

REASONS FOR GRANTING THE PETITION

13

POINT 1
Defendant's Fourteenth Amendment right to due
process was violated when the trial court
obviated defense counsel from exploring the
circumstances
surrounding
defendant's
warrantless arrest by the Elmira police and
reprobating defense counsel's reasons for re­
opening the Huntly hearing. • •

13-17

POINT II:
The court not only abused its discretion, but
also
violated
defendant's
Constitutional
right
to
due
process
to
re-open
the
suppression hearing after counsel supported
the motion with sworn affidavits and was
within statutory guidelines to re-open the
hearing..........................................................................

17-23

POINT III:
Defendant's fifth Amendment Constitutional
rights were violated when the court allowed
the
prosecution
to
admit
defendant's
compelled Grand jury testimony in their
case-in-chief..........................................................

23-30

'/

TABLE OF CONTENTS

POINT IV.
BOTH DECISIONS OF THE FOURTH DEPARTMENT
APPELLATE
DIVISION,
THE
WESTERN
DISTRICT COURT OF NEW YORK, AND THE
COURT
OF
APPEALS
REGARDING
THE
COOPERATION AGREEMENT ARE IN CONFLICT
WITH AT LEAST FIVE CIRCUIT COURTS
INCLUDING THE EIGHTH CIRCUIT COURT OF
APPEALS.

30 - 35

THE NUMEROUS FAILURES BY DEFENSE COUNSEL'S
REPRESENTATION INCLUDING HIS FAILURE TO
INVESTIGATE THE CIRCUMSTANCES SURROUNDING
DEFENDANT'S ARREST: HIS FAILURE TO SUBMIT
A SUPPRESSION MOTION WITH "ALL" THE FACTS,
AND HIS FAILURE TO INVOKE THE EXPRESS
PROVISION OF THE COOPERATION AGREEMENT
PRECLUDING THE USE OF ANY STATEMENTS MADE
DURING THE PENDENCY OF IT AT TRIAL DENIED
DEFENDANT
THE
EFFECTIVE
ASSISTANCE
GUARANTEED BY THE SIXTH AMENDMENT OF THE
UNITED STATE CONSTITUTION. .

35 - 40

POINT V

CONCLUSION

40

INDEX TO APPENDICES
APPENDIX A - 4th Judicial Dept., 440.10 appeal
APPENDIX B - Monroe Co. Trial Court, 440.10 Decision...

1A - 3A
«' •

... 4A - 7A

APPENDIX C - Court of Appeals, Denial of Discretionary review... 8A
APPENDIX D - Constitutional & Statutory provision involved •

•

9A - 23A

*
i

INDEX TO APPENDICES

APPENDIX E - Affidavits of Mr. Woodard & Mr. Mountain

24A - 30A

APPENDIX F - Cooperation Agreement

31A - 34A

APPENDIX G - Matter of Rodeman - Prosecutor Censored

35A - 36A

APPENDIX H - 4th Judicial Dept. - Def. Direct Appeal

39A - 41A

APPENDIX I - [W.D.N.Y] - Habeas Corpus Decision

42A - 71A

APPENDIX J -

2nd Cir. Court of Appeals - Habeas Appeal ....72A - 75A

QUESTIONS PRESENTED

1) Was defendant's Constitutional Fourteenth

Amendment

right

to

Due

process

violated when the Monroe County Trial Court denied the re-opening of a
suppression hearing (Huntly) when defendant's reasons for re-opening were within
statutory

guidelines,

meritorious,

and

likely

to be

successful

in

the

suppression of his statements to police involving his Invocation of his right to
counsel?

2) Was defendant's Constitutional Fifth & Fourteenth Amendment rights violated when
the prosecution used, in their case in chief, defendant's Grand Jury testimony
in contravention of the express terms of a cooperation agreement thereby
breaching the agreement and violated

defendant's rights guaranteed by the

United States Constitution?

3)

Was defendant's Constitutional Sixth Amendment right to effective assistance of
counsel violated when defense counsel failed to Investigate ALL the facts of
this case and thereafter, failed to Invoke the express terms of the Cooperation
Agreement, which precluded the admission of defendant's Grand jury testimony at
Trial?

>i
..V

LIST OF PARTIES

[]

All parties appear in the caption of the case on the cover page.

[X]

All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceeding in the court whose judgment is
the subject of the petition is as follows:

A) Monroe County Supreme Court.
B)

New York State Supreme Court, Appellate Division, Fourth Judicial
Department.
RELATED CASES

1)

People v. Woodard, 96 A.D.3d 1619, Fourth Dept., App. Div. Judgment
affirmed and entered on June 15, 2012.

2)

People v. Woodard, 19 N.Y.3d 1030, Leave to appeal denied. Judgment
entered on September 9, 2012.

3)

Woodard v. Chappius, 2014 WL 122359 (W.D.N.Y), Habeas Corpus denied.
Judgment entered January 13, 2014.

Woodard v. Chappius, 631 Fed Appx. 65, Appeal denied. 2nd Cir. Court of
Appeals,.2016.
5) People v. Brewer, 118 A.D.3d 1407, Appeal #1, Judgment affirmed and
entered June 20, 2014

4)

6)

People v. Brewer, 118 A.D.3d 1409, Appeal #2, Judgment reversed and
entered June 20, 2014.

7)

People v. Miller, 122 A.D.2d 1369, Judgment affirmed and entered
November 21, 2014.

8)

People v. Miller, 25 N.Y.2d 952, Judgment entered March 9, 2015, leave
to appeal denied.

9)

People v. Miller, 128 A.D.3d 1425, Judgment entered May 1, 2016' 3,. Error
Coram Nobis denied.

TABLE OF AUTHORTIES
PAGE #
Avery v Alabama, 308 US 444 ....................................

36

Brown v. Illinois, 422 US 590, ..............................

16

Greiner v. Wells, 417 F.3d 305, 320-21 (2005) .

10, 40

Innes v. Dalsheim, 864 F.3d 974 (1988) ..............

30

Kastigar v. United States, 406 US 441 ................

8, 35

Lindstadt v. Keane, 230 F.3d 191, 200-02 (2002)

10, 40

Mabry v. Johnson, 467 US 504, 509 ........................

29, 33

Michigan v. Mosely, 423 US 96 (1995) ..................

20

Matter of Rodeman, 65 AD3d 350 (2009) ................

26

Murray v. Carrier, 477 US 478, 496 ......................

39

People v. Baldi, 54 NY2d 137, 145-147 (1981) ..

36

People v. Bennett

29 NY2d 464, 466 (1972) ....

9, 10, 39

People v Brewer, 118 AD3d 1407, (2014) ..............

Related Case

People v. Brewer, 118 AD3d 1409 (2014) ..............

Related Case

People Brnja, 50 NY2d 366, 372 ..............................

17

People v. Caban, 5 NY3d 143 ....................................

39

People v. Carrasquillo, 54 NY2d 248, 254 (1981)

20

People v. Cunningham, 49 NY2d 203, 201 (1980) .

20

People v. Droz, 39 NY2d 457, 462 (1976) ............

9, 39

People v. Flores, 84 NY2d 184, 186 (1994) ........

36

People v. Fuentes, 53 NY2d 892, 894 (1981) ....

18

People v. Greaves, 12 AD2d 572 (2004) ................

20

People v. Hawkins, 265 AD2d 572 (1999) ..............

20

People v. Gonzales

27

38 NY2d 208, 210 (1975) ...

iii

People v. Henry, 95 NY2d 563, 565 (2000) ...
People v. Hobot, 84 NY2d 1021, 1022 (1995) .

36
36

People v. Hernandez, 124 AD2d 983 (1996) ...

23

People v. Jacome, 123 AD2d 358 (1986) ......

22

People v. Johnson, 37 AD3d 363, 364 ..............

40

People v. Jenkins, 84 AD3d 1403 ......................

9, 40

People v. Kurkowski, 117 AD2d 111, 119 ........

9, 40

People v. Miller, 122 AD2d 1369 (2014) ........

Related Case

People v. Miller, 11 AD3d 729, 730 .......... ..

Related Case

People v. Miller, 128 AD2d 1425 (2016) ........

Related Case

People v. Miller, 25 NY2d 952 (2015) ............

Related Case

People v. Misuis, 47 NY2d 979 (1979) ............

16

People v. Pendergraph, 170 AD3d 1630 (2019)

16

People v. Rivera, 45 AD3d 1249, 1251 .............

36

People v. Rich, 166 AD2d 615 (1990) ..............

26

People v. Robinson, 282 AD2d 75, 79 ..............

17

People v. Rodgers, 48 NY2d 167 (1997) ..........

22

People v. Rossborough, 122 AD3d 1244 (1014)

9, 40

People v. Silverman, 3 NY2d 200 (1957) ........

36

People v. Smith, 301 AD2d 471, 473 (2003) ..

11

People v. Smith, 24 AD3d 1286 (2006) .......... ..

22

People v. Stokes, 165 Misc.2d 934 (1995) ...

26

People v Turner, 5 NY3d 476, 485 .....................

36, 39

People v. Toxey, 220 AD2d 204, 205 (1995) ..

20

People v. Wise, 46 NY2d 34 (1978) ..................

16

People v. Wlasiuk ;___AD3d

36

WL 6820985

People v. Woodard, 96 AD3d 1619 (2012)

iv.

7, 12

I

People v. Woodard, 19 NY2d 1030 (2012) ............................

7

Powell v. Alabama, 287 US 45, 57 (1932) ..........................

10, 36

Ramseyer v. Wood, 64 F.3d 1432, 1439 (1995) ..................

36

Santobello v. New York, 404 US 257, 262 ..........................

29, 30

Starickland v. Washington, 466 US 668 (1984) ................

36, 39

Ullman v. United States, 350 US 422 ..................................

28

United States v. Ataya, 864 F.2d 1324 ..............................

33, 34

United States v. Baldacchino, 762 F.2d 170, 179 (1985)

32

United States v. Brown, 801 F.2d 352 (1986) ............ ..

31, 32, 35

United States, Castelbuono, 643 F.Supp 965 (1986) ....

. 26, 34

United States v. Calabrese, 645 F.2d 1379, 1390 ..........

32, 33, 34

United States v. Carillo, 709 F.2d 35, 36 (1983) ........

32

United States v. Crews, 455 US 463. 471-73 (1980) ....

20

United States v. Gallo, 859 F.2d at 1082-84 ..................

30

United States v. Glasser, 315 US 60, 69-70 ....................

35

United States v. (Jerry) Harvey, 869 F.2d 1439 (1989)

30

United States v. Irvine, 756 F.2d 708, 710 (1985) .....

32

United States v. North, 920 F.2d 940 ................................

8

United States v. Pellrtier, 898 F.2d 297 ........................

8, 33, 34

United States v. Readon, 787 F.2d 512 (1986) ................

34

United States v. Simmons, 537 F.2d 1260 ..........................

33 -

United States v. Skalsky, 857 F.2d 172 (1986) _____ _

34

United States v. Woods, 780 F.2d 929 ................................

33

Woodard v. Chappius, 2014 WL 122359 (2014) .......... ..

Related Case

Woodard v. Chappius, 631 Fed Appx. 65 (2016) ................

Related Case

DeCanzio v. Kennedy,' 67 AD2d 111, 119 (1979) ................

v.

16

STATUTORY AND CONSTITUTIONAL AUTHORITY

Page #
NY Criminal Procedure Law - 440.10 ...

2, 7, 8

NY Criminal Procedure Law - 710.40(4)

5, 18

NY Const. Art. 1 § 6........ .......................

35

United States Const. Amend. VI (5th) .

16, 17, 22, 28

United States Const. Amend. VI (6th) .

4, 15, 16, 17, 35

United States Const. Amend. XIV (14th)

13, 27

OTHER:

ABA Criminal Defense Fuction Standard 4-3.2(a)
Code of Judicial Conduct cannon 3(a) ................

. 10
27

OPINIONS BELOW
PETITIONER RESPECTFULLY PRAYS THAT A WRIT OF CERTIORARI ISSUE TO REVIEW THE
JUDGEMENT BELOW.
For cases from Federal Courts:
The opinion of the United States Court of Appeals appears at Appendix J to
the petition is 631 Fed. Appex. 65, and has not been selected for
Publication in West's Federal Reporter.
The opinion of the United States District Court appears at Appendix I to the
petition and is reported at 2014 WL 122359.
For cases from State Courts:
The opinion of the highest state Court to review the merits appears at
96 A.D.3d 1619, 4th Dept., Direct Appeal.
The opinion of the Monroe County Court appears at Appendix B to the Petition
and is unpublished - 440.10 Denial
The opinion of the Fourth Judicial department appears at Appendix A and is
unpublished - 440.10 Appeal.

1.

v'

JURISDICTION

The Judgment of the New York State Court of Appeals denying discretionary
review was entered on April 9, 2020 which triggers the tolling time for a Writ of
Certiorari. This courts jurisdiction rests on 28 U.S.C § 1257

RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS

The relevant Constitutional and statutory provisions are reproduced infra at
Appendix D.

STATEMENT OF THE CASE

Petitioner Justin Woodard seeks review by way of Writ of Certiorari regarding
a order of the New York State Court of Appeals denying leave to appeal dated April
9, 2020. A description of that order is: "Order of the Supreme Court, Appellate
Division, Fourth department, entered January 31, 2020, affirming an order of the
Supreme Court, Monroe County, entered December 26, 2015"

which involved the

denial of defendant's CPL § 440.10 motion to vacate his conviction.
In the underlying Criminal action, defendant was convicted of Second degree
Murder and Attempted First-degree Robbery and sentenced to an aggregate prison term
of 20 year's to life in prison.
On January 4, 2007, Robert Brewer at the behest of William Miller, shot Keith
Holloway to death at the home of Carmella Miller on Norton Street in Rochester, New
York. Sane time later, law enforcement Authorities learned that defendant Justin

2.

V

Woodard may have been involved in the. crime as driver of the vehicle that took
Brewer and Miller to and from the crime scene. On November 20, 2007, defendant
and his half-brother Sinclair Mountain were arrested without a warrant by
multiple police agencies including the Elmira Police who, on that day, were
executing search warrants- in connection with a Narcotic Investigation not known
by defendant at the time of his warrantless arrest. Subsequent to his Warrantless
arrest, defendant and his half-brother, were brought to the Elmira Police station
where defendant invoked his right to counsel after police threatened him that he
wouldn't see his kids until they were his age. Hour's later defendant was taken
to a truck stop in Dansville, New York, by two Elmira Officer's and turned over
to two officer's from the Rochester Police department. While in transit to the
Rochester police headquarters defendant was read his Miranda rights by Officer
O'Brian. Defendant, at that time , and again, invoked his right to counsel and
named the specific Attorney that he wanted to speak with before answering any
questions. Defendant was told by Officer O'Brian that he did not need a lawyer
because nobody said

he

had done anything. The Rochester Investigator's told

defendant that they just wanted to get his side of the story because they had
heard he was at the scene of the crime.
During the interrogation defendant made statements and incriminated himself
after a promise was made by police that if he told the" truth he could go home
that night. After Defendant made these incriminating statements, he was released
from custody, however, two weeks later, on December 4, 2007, defendant was
arrested and charged by felony complaint with one count of Second degree murder
and one count of Attempted First degree robbery. Defendant thereafter entered
into a Preindictment Cooperation agreement with the Monroe County District
attorney's office and pursuant to that agreement, testified before the Grand Jury
as a prosecution witness. His Grand jury testimony was consistent with his

3.

'(if

statements to the Rochester police when they took over custody of him and made
promises to induce his statements. Because of a subsequent aprest and conviction
for promoting prison contraband while at the Monroe County jail, the District
Attorney unilaterally modified the cooperation agreement

from a

five year

determinate term for attempted First-degree robbery to 15 year's for the same
crime. Defendant's Attorney Charles T. Noce with defendant's consent thereafter
terminated the agreement by letter dated June 23, 2007. Defendant was subsequently
Indicted on the charges set forth in the felony complaint having a strong suspicion
that he was indict©! because of his own testimony that he provided under the
terminated Cooperation agreement.
Defendant's attorney then moved to suppress the statement defendant made to
?:•

police in Rochester, arguing that the statement was not voluntary, that defendant
was not properly advised of his Miranda rights by the Rochester police, that he
lacked the capacity to understand his rights, and that he did not effectively waive
his rights to remain silent. Counsel did not,

at that

time,

make a right-to-

counsel argument or make any arguments relating to defendant's interaction with the
Elmira Police and his Invocation of his Sixth Amendment right. It should also be
noted that defense counsel made his suppression motion without ever meeting with
defendant to ascertain that facts of the case.
After a suppression hearing was held, but before a decision was made, Mr.
Noce made a letter request to re-open the hearing on the basis that prior to being
picked up by the Rochester police Investigator's, defendant had invoked his right
to counsel to the Elmira Officer's who took him into custody for the sole purpose
of handing him over to Rochester Police. Defendant contended that since the Elmira
. ?' ■.

Police had apprehended him solely for the purpose of handing him over to Rochester
Investigator's rather than Elmira Drug Charges, his request for counsel carried
over to the Rochester police Interrogation. Mr. Noce stated that the reasons he was

4.

making the request to re-open at that time was that, after the Suppression
hearing, defendant, informed him that he had invoked his right to counsel to the
Elmira P.D, telling that department he would not speak or cooperate with them and
that he wanted his attorney present.
Annexed to the letter request was an affidavit from defendant attesting that
i

he did invoke his right to counsel in Elmira, that he, "was unaware prior to the
[suppression] hearing of what time frame would be discussed regarding [his]
custodial situation on November 20,

2007"

and that he told his attorney

subsequent to the hearing "that [he] had already invoked [his] right to counsel
while [he] was with the first police agency."
By decision and order dated January, 2009, the hearing court found that
defendant's statement was voluntarily made and denied suppression. The decision
did not address the request to re-open. It should be noted that the courts
decision

was erroneous inasmuch as the court did not have all the facts before

it, nor did the court allow all the facts to come before it. This was so largely
because of defense counsel's shortcomings and his failure to even

meet

with

defendant before drafting his suppression motion and also his failure to properly
and fully investigate the facts of the case.
Thereafter on February 5, 2009 defendant's counsel made a formal motion on
Notice to re-open .the suppression hearing on the grounds previously stated in the
letter request. Defense counsel Noce supplemented this motion by letter dated
February 10, 2009, stating that the motion was being made on the authority of CPL
§ 710.40(4). As part of that letter, Mr. Noce stated that, because defendant was
initially taken into custody by the Elmira drug task Force, it was impossible to.
determine before the time of the hearing whether his invocation of the right to
counsel in Elmira concerned the subject homicide or another drug offense for which
the Elmira P.D where investigating him. Only at the hearing did counsel learn that

5.

no Elmira charges were pending, however, it should be noted that defense counsel
had from March 2008 until January 2009 to ascertain and investigate that facts and
circumstances of defendant's case.
The People, of course, opposed the motion to re-open on the basis that the
facts upon which re-opening was sought were already known to the defendant at the
time of the suppression hearing.
By decision and order dated February 17, 2009 the hearing court agreed with
the people that "the additional pertinent facts which defendant claimed to have
v discovered were all circumstances relating to his arrest", and that his invocation
of his rights to counsel to the Elmira P.D was "a fact that was easily capable of
being shared with his attorney". As such, "if defendant withheld this information
> from his counsel, he did so at his own peril". Alternatively, the motion court
rejected "[t]he argument that only facts elicited at the hearing caused the making
of the motion," finding that "[i]t would be incumbent for defense counsel to argue
ab initio that all police contacts with defendant related to the subject
homicide." As such, any misapprehension about the purpose of defendant's initial
arrest would not have prevented counsel from making a right-to-counsel argument.
Accordingly, the court declined to re-open the Huntly hearing.
Defendant then proceeded to trial where the prosecution used his Grand Jury
Testimony

in

their case-in-chief as

evidence

against

him.

Defendant

was

subsequently convicted on both counts, after which he was sentenced to 20 year's
to life in prison.
Defendant timely appealed his conviction and sentence and filed a brief in
the Appellate Division, Fourth Department that argued six (6) points. In pertinent
part, defendant argued that the people were precluded by the cooperation agreement
from introducing his Grand Jury testimony into evidence during their
case-in-chief. Defendant also argued that the trial court abused it discretion in

6.

refusing to re-open the suppression hearing,

and that trials counsel was

ineffective for: (a) not moving to suppress his written statement on the ground
that it was the fruit of an arrest without probable cause, (b) not invoking the
cooperation Agreement in response to the people's offer of his Grand Jury
testimony, (c) Failing to investigate the circumstances surrounding his arrest so
as to discover that he had invoked his right to counsel, and (d) failing to move
for a.trial order of dismissal.
On June 15,

2012 the Fourth Department,

Appellate division affirmed

defendant's conviction and sentence, see People v. Woodard, 96 A.D.3d 1619 (4th
Dept. 2012) Please also see Appendix H, pg. 39A-41A.
Defendant timely sought leave to appeal to New York’s highest court (N.Y.S
Court Of Appeals) and was denied leave on September 12, 2012. see

People v.

Woodard, 19 N.Y.3d 1030 (2012).
On April 27, 2015 defendant moved Pro-Se to vacate his conviction pursuant
to CPL § 440.10. Subsequently, defendant obtained Jane S. Myers, Esq., as ProBono counsel, and submitted supplemental moving paper's contending that his
counsel was ineffective for: (A) Failing to conduct proper investigation and
discover that defendant Invoked his right to counsel in Elmira, and raise that
issue in a suppression motion; and (B) failing to argue that defendant, was
arrested without probable cause. Annexed to the supplemental moving paper's were
affidavits from defendant and His half-brother Sinclair mountain, who was present
at the time of defendant's interaction with the Elmira police. Defendant attested
that when the Elmira officer's arrested him, he believed that he might have been
arrested on Narcotics charges and told ' them he wanted to have his attorney
present. Defendant thereafter named the specific attorney who had previously
represented him. Mr. Mountain attested that he was hand-cuffed and taken to the
Elmira Police Station along with' defendant and, while in custody, he heard the

7.

Elmira Police threaten defendant that he would not see his kids until they were
his age. see sworn affidavits in Appendix E, Pg. 24A-30A.
The people filed paper’s opposing the motion. By letter ruling dated
December 23, 2015, the Monroe County Court (Hon. Francis A Affronti, J) denied the
motion, see Unpublished opinion at Appendix B, Pg. 4A-7A. The court held, in
t

pertinent part "[t]he Appendix reflects that counsel sought to re-open the
suppression hearing on the basis that the defendant invoked his right to counsel,
which motion was denied", and thereafter, under CPL § 440.10(2)(c) "the alleged
deficiency in counsel's representation is apparent from the record and therefore,
no hearing is required." The court further determined that a single error by
otherwise competent counsel does not deprive a defendant of effective assistance
of counsel unless it is of "such prejudicial magnitude that there exists a
reasonable likelihood of a different outcome," and that even if a motion to
suppress on1 right to counsel grounds would have been successful, "defendant's"
testimony before the grand jury, which was. consistent

with his statement .to

police, was nevertheless considered by the jury." Thus, the alleged error by
counsel was not so prejudicial as to have likely resulted in a different outcome.
However, contrary to the courts holding, it was clear error for defendant's Grand
jury testimony to be admitted in the people's case-in-chief, and should not have
been evidence for the jury to consider, see

U.S v. North, 920 F.2d 940; Kastigar

v. U.S, 406 U.S 441; U.S Pelletier, 898 F.2d 297.
Defendant then sought,

and. was granted leave to appeal to the Fourth

Department, Appellate Division. In his briefs to .that court, defendant argued: (i)
that his ineffective Assistance claim relied upon materials outside the record and
was not procedurally barred;

(ii) that counsel's failure to ascertain the

circumstances of his Elmira, Arrest and make an appropriate suppression motion was
ineffective, and (iii) that, such ineffectiveness was not harmless error because

8.

the Grand Jury testimony was also inadmissible under the terms of the Cooperation
agreement.
By decision- and' order dated January 312

2020, the Fourth Department,

Appellate Division affirmed the decision of the lower court see Appendix A, Pg. 1A
-3A.
Defendant thereafter sought leave to appeal to New York's highest court
(N.Y.S Court Of Appeals). In his leave application defendant turned to the merits
of the case and submitted that the fourth department was simply wrong in placing
the onus upon him to inform his Attorney of the circumstances of the Elmira
Arrest. As the Appellate division acknowledged, it is well settled that the right
to effective representation includes the right to assistance by an attorney "who
has taken the time to review and prepare both the law and the facts relevant to
the defense and who is familiar with', and able to employ at trial basic principles
of criminal law and procedure" People v. Droz, 39 N.Y.2d 457, 462 (1976) (Emphasis
Added) citing People v. Bennett, 29 N.Y.2d 462, 466 (1972). Errors which impact
"basic points essential to the defense are often found to be determinative." Thus,
where an attorney failed to "consult" with the defendant thus never learned that
the defendant had pled-guilty to the last three charges of the indictment, he was
found culpable for the admission of damaging testimony that related only to those
charges, see id; accord, People v.\ Rossborough, 122 AD3d 1244 (4th Dept. 2014) ("A
defendant's right to effective assistance of counsel'-includes defense* counsel's
reasonable investigation, and the failure to investigate may amount to ineffective
assistance of counsel.") citing People v. Jenkins, 84 A.D.3d 1403 and People v.
Kurkowski,

117 A.D.3d 1442.

Thus counsel has ra duty

to make reasonable

Investigations or to make a reasonable decision that particular Investigations are
unnecessary,' and his decision must be grounded in knowledge of relevant legal*
principles, see Greiner v. Wells, 417 F.3d 305, 320-21 (2nd Cir. 2005); Lindstadt

9.

v. Keane, 239 F.3d 191, 200-02 (2nd Cir. 2001).
■ It is simply not the job or duty of a criminal defendant* who is unfamiliar
with the science of criminal law and procedure to determine for himself what
facts are relevant and to curate those facts for his counsel. Defendant had only
one prior conviction for criminal mischief and had no experience with the
criminal justice system. There is a reason why it called "ineffective assistance
of counsel" and not "ineffective assistance of oneself". Instead, as Droz, Supra
Illustrates, it is counsel' s job to "Consult" with his client and learni:-the? .ua
relevant facts, and even a plea of guilty to pert of the indictment, which the
defendant could easily have told his attorney about is something that the
attorney was culpable for failing to learn, see Droz, 39 N.Y.2d 462; see also
People v. Pendergraph, 170 A.D.3d 1630 (4th dept. 2019).
Indeed even in the 1930's, it was recognized that without ''consultation''
thoroughgoing Investigation and preparation by defense counsel, the defendant
would be denied the "aid of Counsel", in any real sense. Powell v. Alabama, 287
U.S 45, 57 (1932).
Moreover, the "standard" of "reasonable competence" adverted by the fourth
department does not warrant a different conclusion. Any reasonably competent
Criminal defense Attorney would, at the initial Interview with his client discuss
the clients arrest and inquire into all relevant circumstances, including whether
his client invoked his right to counsel, see ABA Criminal Defense Function
Standard 4-3.2(a) (20120 ( as soon as practicable, defense Counsel should seek to
determine "ALL" relevant facts known to the accused. In so doing, defense counsel
should probe for all legally relevant information without seeking to influence
the direction of the clients responses) In this case, the simple question "what
-happened when you were arrested in Elmira", would have revealed the information
that Mr.

Noce needed in order to raise the right-to-counsel issue in a

10;

suppression motion.

The standard of. "reasonable competence" should not

excuse an Attorney from making such elementary inquiry nor, should it shift the
burden to the non-lawyer' defendant to inform his counsel of facts that counsel
could have and should have obtained by asking a few' simple and basic questions.
Thus, whether Mr. noce's failure to make a right-to-counsel argument in his
initial suppression motion is framed as a failure to investigate, or as a failure
to raise all the issues that should have been obvious

the result is the same,

such failure was Mr. Noce's not defendant*s (Emphasis Added). Moreover, Mr. Noce
in his 2009 affidavit regarding a motion to re-open the suppression hearing
candidly took the blame for such failure, admitting that he hadn't realized until
the suppression hearing that the circumstances of the Elmira arrest might even be
relevant.

■

.

. /

1 .

.

There is also a reasonable probability that, if a suppression motion had
been

made on right-to-counsel grounds, defendant would have prevailed. In the

lower court, -the people argued that because officer Adams of the Elmira P.D
testified at trial that defendant had never asked for an attorney, a suppression
motion would have failed. But the trial jury never heard from either defendant or
Sinclair Mountain,

and it is certainly not a foregone conclusion that a

suppression court, after hearing the witness and after officer Adams was crossexamined, would have excepted the officers word over theirs. Any conflict between
sworn statements of defendant and Mr. Mountain on one hand, and officer Adams on
the other, is an Issue of credibility that cannot be determined without an
evidentiary hearing. It is settled that a CPL §

440.10 that hinges on conflicts

between witnesses "cannot be resolved on affidavits alone, but only after a
hearing at which testimony is received, affording the court a basis on which to
make credibility determinations" People v. Smith, 301 A.D.2d 471, 473 (1st dept.
2003). The credibility of a witness and whether his testimony is to be believed

11.

was not a matter for the (440.10 motion) court, but for the jury on retrial."
DeCanzio v. Kennedy, 67 A.D.2d 111. 119 (4th dept. 1979) Thus, the lower court was
not entitled to reject defendant’s ineffective assistance of counsel claim
without, at minimum, holding an evidentiary hearing at which witnesses can be
cross-examined and their credibility weighed.
Finally, a word must be said about harmlessness, which was discussed by the
County Court,

but not reached by the Fourth Department. The County courts

conclusion that any harm from failing to suppress the defendant’s statement to the
• police was obviated by admission of the Grand Jury statement is simply wrong,
■ because the Grand Jury statement also should never have been admitted. It is
undisputed that the Grand Jury statement was made pursuant to a Cooperation
Agreement, and the terms of that agreement provided that if it were terminated,
"statements made by the defendant during the pendency of the agreement, regarding
the crime specified above will not be used against him on the people* s direct case
in chief in that prosecution". Elsewhere in the agreement, the term "statements"
was specifically defined to include "Grand Jury testimony" during their case-in­
chief (Please see Cooperation agreement infra at

• Appendix F, Pg. 31A-34A)

Therefore, the prosecution should have never been allowed to introduce the Grand
jury testimony during the direct case irrespective of defendant being convicted of
i
i r
promoting prison contraband during the pendency of the agreement.
Defendant notes that when the issue of the Grand Jury testimony was raised
i

4

on appeal, the Fourth Department did not find that it was properly admitted,
instead; the court .held that any error was "harmless" in light of the admission of
defendants oral statement, see People v. Woodard, 96 A.D.3d 1619, 1620 (4th dept.
2012) In other words, on direct appeal the admission of- the Grand Jury testimony
'

.

I i

t ■*

'

*

(- ^

.

*

,i

was deemed harmless because of the oral statement defendant made to police, and
then on the 440.10 motion decision, the admission of the oral statement was

12.

V

deemed harmless because of the Grand Jury testimony. Defendant posits that it
can't be both ways.' If defendant's cdunsei*had success'fuliy ^obtained suppression
of the oral statement, then the Fourth Departments evaluation of the harmfulness
of the Grand Jury testimony would rid : doubt have been- very different,

and

therefore, the weighing of prejudice from Mir. Node's failure to raise a right-tocounsel

argument

must' take

account

the 'fact

that

both

statements' were

inadmissible. Weighed in that light, the prejudice- from failure to suppress the
oral statement is clear. Without the statement of the'Grand Jury testimony, the
jury would have been left with 'only the testimony of Kentrell Burks, which put
defendant at the scene and testified that'he was driving Mr. Brewer and Mr. Miller
around but did not make- him a participant in the shooting, and contrary to what
the Fourth Department stated, would not have corroborated defendant's Grand Jury
testimony.

It is entirely possible-, that’ .this would' not have been legally

sufficient’,to convict: arid 'thath-theiicas.e :wo'uldh.have. survived a trial motion to
dismiss, there is certainly a reasonable probability that a jury that heard 6hly
Mrh-Burks'- testimony, would-have" acquitted-■’defendant. ‘ For these-reasons' and the
A
•

J>

reasons«that-follow, ;d writ*of Certiorari should be granted.
• t

REASONS FOR GRANTING THE PETITION
-1 ‘

POINT I

‘
“ f f

DEFENDANT’S FOURTEENTH AMENDMENT RIGHT TO DUE
PROCESS WAS VIOLATED WHEN THE TRIAL COURT
:'OBVIATED DEFENSE COUNSEL FROM EXPLORING THE 1
CIRCUMSTANCES SURROUNDING DEFENDANT'S WARRANTLESS
ARREST BY THE ELMIRA ' POLICE AND ' REPROBATING'
DEFENSE COUNSEL'S REASONS FOR RE-OPENING THE

13.

HUNTLY HEARING BASED ON ERRONEOUS OPINIONS AND
FURTHER ABROGATED ITS OWN TIME LIMITATION FOR
COUNSEL TO SUBMIT A MEMORANDUM OF LAW IS SUPPORT
OF
LITIGATION
PRESENTED
IN
THE
INITIAL
SUPPRESSION HEARING.
A combination Wade and Huntly hearing was conducted on January 15, 2009, on
consent of the people. At the hearing, the people called two Investigators. Inv.
Lawler and O'Brian from the

Rochester police Department, through whom it was

revealed that while custody of the defendant had been transferred by members of
the Elmira P.D on November 20, 2007, they had no arrest warrant. When defendant's
attorney attempted to inquire into the circumstances justifying the arrest (that
is, whether he had been charged with a crime by Elmira authorities or, to put it
otherwise, whether there was a probable cause basis for the arrest), he was not
permitted to do so by the court on a sustained objection by the people. At the
conclusion of the hearing, the court afforded both attorney's the opportunity to
submit memoranda of law after the hearing transcript was to be provided. The court
thereupon adjourned the matter to February 13, 2009 for the express purpose of
rendering a decision on the issues.

.

A transcript of the hearing was subsequently certified on January 20, 2009,
five days later. Without the benefit of any memoranda of law, by decision and
order (one page) dated just nine days later on January 29, 2009, the court denied
suppression of both defendant's statements (oral & written) as made on November
20, 2007. No mention was made by the court in its decision of the reason for
defendant's arrest. The decision of the court was made fifteen (15) days before it
originally stated it would render one without notice to either party.
While dated a week prior to the issuance of the Wade/Huntly decision and
only two days after the date the hearing transcript was certified, the defendant's
letter-motion to re-open the hearing was filed on January 30, 2009, Fourteen days

14.

before the Huntly hearing decision' was to be‘rendered.. Thereafter, by noticed
motion dated February 5, 2009, the defendant's counsel formally moved for the same
relief,

basing his request on not only his inability. to delve into the

circumstances of his clients arrest by the Elmira Police

which thereby

precluded him from inquiring into the "seminal" issue of whether there was any
legal basis for the arrest - but also on the basis of his sworn allegation that he
had invoked his right to counsel to Elmira P.D before being transferred into the
custody of the two Rochester Investigators. See defendant's sworn affidavit infra
at Appendix E, Pg. 27A-30A. At the courts request, both the defense and the
prosecution submitted Memoranda of law on the subject of whether the hearing
should be re-opened. The people opposed the motion.
The court, by decision and order (one page) dated February 17, 2009, denied
the motion to re-open the hearing, finding that there was no "pertinent facts"
that could have not been discovered with the exercise of due diligence before the
hearing. It should be noted that the court erroneously precluded the presentation
of critical and relevant evidence relative to the Sixth Amendment violations
implicated

both by the

initial heating evidence and

subsequently

through

defendant's uncontroverted allegations as contained in his sworn affidavit in
support of his motion to re-open the Huntly hearing.
It should also be noted that despite having earlier reserved the right to
make further motions should the need arise, neither then, nor at any other point
during the proceedings conducted in the trial court is there any record evidence
that the defendant's attorney submitted a separate motion challenging or seeking a
hearing on the probable cause basis for his clients arrest by the Elmira Police or
to suppress his statements on the ground that his client had waived his right to
counsel to investigators Lawler and O'Brian outside the presence of an attorney
after earlier having invoked his right to counsel, which exemplify*s counsel's

15.

counsel's ineffectiveness times ten. (Emphasis Added)
First, while defendant was permitted to reveal that the Rochester Police had
no warrant for defendant's arrest, when the defendant's attorney attempted to
inquire of the people's alleged witnesses

of the basis upon which the defendant
l

'

had been arrested by the Elmira police, he was precluded from doing so. This, in
of itself, was a gross abuse of discretion and reversible error since by
precluding "full" inquiry into a predicate issue of Constitutional dimension, the
court did not have before it a full evidentiary basis upon which to rest its
decision regarding the admissibility of the defendant's statement as made on
November 20, 2007 to the Rochester police.
It is well settled that on a motion to suppress a defendant's post-arrest
statements, the suppression court is "required" to permit the defendant to delve
fully into the circumstances attendant upon his arrest, People v. Misuis, 47
N.Y.2d 979 (1979); see also

People v. Wise, 46 N.Y.2d 321 (1978). This is so

since even a statement made voluntarily under Fifth & Sixth Amendment standards,
will nevertheless be suppressed if it has been obtained through the exploitation
of an illegal arrest, i.e., as a Fourth Amendment violation, Brown v. Illinois,
422 U.S 590. Here by restricting the inquiry of defense counsel, the defendant was
not permitted to fully expose the circumstances surrounding his arrest and thereby
lay bare the Constitutional violation... to properly enable the court to determine
whether the statement was admissible or not.
Had defense counsel been permitted to inquire into the circumstances
surrounding the arrest by the Elmira Police - as became apparent from the defense
:

i

‘

'

.

motion to re-open the hearing - it would have been revealed that the defendant was
'

■

»

»

■

.

arrested not pursuant to a warrant or on Criminal charges, but rather only as an
accommodation

to the Rochester P.D. It would have been revealed that he had been

taken into custody by the Elmira police and several hour's later transported

16.

to Dansville in hand-cuffs by two Officer's where custody was transferred to two
Investigators with the Rochester P.D.
from a reasonable standpoint it can not be said that defendant was not
"under arrest" when he made his incriminating statements to police, see People v.
Bmja, 50 N.Y.21d 366. 372; People v. Robinson, 282 A.D.2d 75, 79. If the arrest
was not supported by probable cause - and query how could it have been when he was
after he provided what the investigators believed to be a truthful recitation of
his involvement - irrespective of any possible waiver or invocation of his Fifth
and Sixth Amendment rights,

then his statement was required to have been

suppressed.
By restricting the inquiry into the circumstances surrounding defendant's
arrest, the court undeniably deprived itself of critical facts concerning who (1)
actually took the defendant into custody, (2) where and by whom he was arrested,
(3) whether and by whom he was Mirandized, and (4) if he ,was Mirandized, whether
he invoked his right to remain silent and/or, to counsel as was later claimed in
his affidavit in support of his motion to re-open the hearing. By failing to
permit inquiry into the circumstances of the defendant's arrest, the Monroe County
court made its determination on the admissibility of the defendant's post-arrest
statement without complete factual record basis. That, it is submitted, was error
and a gross abuse of discretion.
POINT II
THE COURT NOT ONLY ABUSED ITS DISCRETION, BUT
ALSO VIOLATED DEFENDANT'S CONSTITUTIONAL RIGHT TO
DUE PROCESS WHEN THE COURT REFUSED TO RE-OPEN THE
SUPPRESSION HEARING AFTER COUNSEL SUPPORTED THE
MOTION WITH SWORN AFFIDAVITS AND WAS WITHIN
STATUTORY GUIDELINES TO RE-OPEN THE HEARING.
A trial court may re-open a pre-trial hearing if "satisfied, upon a showing

17.

by the defendant, that additional pertinent facts have been discovered by the
defendant Which he could not have discovered with reasonable diligence before the
determination” of his pre-trial application. NY CRIM PROC LAW § 710.40(4); see
People v. Fuentes, 53 N.Y.2d 892, 894 (1981). While the court of appeals1 has held
that a court is riot required to grant a motion to re-open

after' a decision

denying suppression has been announced, it has suggested that in order to satisfy
the so-called 'threshold requirement' for re-opening a hearing, the defendant must
establish a factual predicate either at the initial hearing or in his motion
seeking to re-open”, see People v. Coughlin, 995 F Supp 268, 277 (EDNY), aff'd
129 F.3d 254 (2nd cir. 1997) (discussing People v. Mercado, 62 N.Y.2d 866 [1984]).
As the Gagne court observed, cases interpreting the statutory authority permitting
the re-opening of suppression hearings have ”exhibit[ed] a generous policy of re­
opening suppression hearings” with the "general rule" being "to re-open the
hearing when it appears that the new evidence would give the [defendant] at least
some chance of prevailing on the merits.” This was such a case (Emphasis added).
Having learned that there had been neither an arrest warrant for nor
criminal charges lodged against the defendant by Elmira P.D and that the arrest
had, been made only to accommodate the Rochester P.D. Upon not being permitted to
inquire further into the circumstances surrounding the

arres t, the defendant's

attorney sought to re-open the hearing. First he moved by letter motion and then
by formal Noticed motion. Along with his formal Motion defendant's attorney
attached with it Defendant's and Sinclair Mountain's sworn Affidavits attesting
the defendant invoked his right to counsel, and therefore met the so-called
"threshold requirement” spoken of by the court of Appeals regarding the re­
opening of a suppression hearing. The people opposed the motion. In doing so, the
prosecutor ignored altogether that the defense sought to expose further the
Dunaway issue that had only been partially revealed at the initial hearing and

18.

instead challenged the defendant's claim that he had invoked his right to counsel
to Elmira ,P.D„ even • before custody had been transferred to the Rochester
Investigators-, in the latter respect, the prosecutor argued that the challenge was
untimely, and by implication, specious. But' at-rid point did the prosecutor
contradict the defendant's right to counsel claim.
Once again, and again without allowing for inquiry into the factual basis
for the defendant's Constitutional claim,

the court erroneously adopted the

prosecutors argument-and denied the motion to- re-open -the-hearing. Under the
circumstances herein, it is- submitted 'that-this amounted to. a gross abuse of
discretion on the-courts part and violated defendant's Constitutional right to due
process. Moreover, defendant's reasons for re-opening concerned him invoking his
Constitutional right to remain silent and 'was within statutory guidelines to re­
open the hearing. Given the time at which the motion was interposed, there was
ample time to allow for the hearing to be re-opened without delaying the trial.
The motion was made well in advance of the anticipated trial date and two weeks
before the anticipated decision of the suppression hearing itself. Additionally,
by virtue of the evidence that was introduced at the initial hearing, there
plainly remained unanswered the question of whether there had been a reason for
the defendant's arrest beyond merely facilitating a sister agency's on-going
investigative efforts. Finally, and possibly most importantly, by virtue of the
defendant's uncontroverted claim that he had invoked his right to counsel to
Elmira Police, the court willfully ignored the question of whether the defendant's
constitutional claim had a factual basis such that suppression of a vital and
highly prejudicial piece of prosecution evidence would have been required.
It cannot be reasonably argued that the issue of the circumstances
surrounding his original arrest - whether -as a matter implicating the lack of
probable cause as the defendant's attorney suggested in his moving paper's or, as

19.

it may have related to the defendant's claimed invocation of his right to counsel
- were pertinent and could have and should have resulted in suppression, see
United States v. Crews, 445 US 463, 471-473 (1980) (statement made following an
illegal arrest must be suppressed as fruit of a poisonous tree); People v.
Carrasquillo, 54 N.Y.2d 248, 254 (1981) (same); see Michigan v. Mosely, 423 US 96
(1975) ( statement made after invocation of right to counsel without waiver in
counsel's presence must be suppressed) People v. Cunningham, 49 N.Y.2d 203, 210
(1980) (same). Even so, the Monroe County Court elected to deny to the defendant
« ,

f

the opportunity to reveal the Constitutional violation, which also implicates Due
process.
Adopting the reasoning of the prosecutor, the trial court reasoned that the
defendant was presumed to know the circumstances of his arrest, (citing to People
v. Greaves, 12 A.D.3d 690 [2nd Dept. 2004], lv denied 4 N.Y.3d 763 [2005]); While
it is acknowledged

that such a presumption is indeed readily accepted in the law

( see People v. Hankins, 265 A.D.2d 572 [2nd Dept. 1999], lv denied 94, N.Y.2d 880
[2000]. The Fourth Department Appellate Division also erroneously agreed with the
trial court, See Appendix A, P.g 3A.
i

The case-law the

* • ’

Fourth Department, Appellate Division,
:

• *

*

*.

.

. .

-v

. . ’

relies on
*

<

is

i

completely misplaced inasmuch as the instant case presents a totally different
fact pattern from those cases and falls short of being supportive in

any

meaningful way. Here, unlike in other instances (see e.g., People v. Toxey, 220
A.D.2d 204, 205 [1st Dept. 1995], app denied, 88 N.Y.2d 855.[1996]), to expect the
defendant to have knowledge of the circumstances of his arrest was error and
inappropriate. It was learned, at the suppression hearing, the defendant was not
arrested pursuant to either an arrest warrant or charges relating to any criminal
activities in Elmira. Instead, upon the basis of the evidence presented at the
hearing as supplemented with one of the hearing witness's narrative reports, it
was learned that the actual reason for taking the defendant into custody was a
20.

"plan" by which he was to be turned over to the Rochester Police, such plan
apparently having been effectuated by unnamed member(s) of the Elmira Drug Task
Force and other unnamed member(s) of the Rochester Police Department. Apparently
in furtherance of that "plan", custody of the defendant was transferred to the two
Investigators from the Rochester Police Department. Under this unique situation,
it is submitted that to presume that this defendant knew of the circumstances of
his arrest was indecorous and as such, both the trial court and the Appellate
Division erred in concluding as such. On that basis, the failure of the defendant
to know the circumstances of his arrest so as to move for suppression was clear
error. For this court to also agree would be a travesty and a gross miscarriage of
justice.
Although not reached by the Appellate Division, the trial court also erred
in finding that the defendant had not "adequately explained" why the motion to re­
open the hearing had not been brought sooner. According to the court, the motion
was not received in chambers until after its written decision "had been written
and filed", such having been also a basis of comment by the prosecutor in opposing
the motion. While this may have been accurate in the technical sense, at the time
the initial letter/motion was ostensibly drafted (such being January 22, 2009) and
even at the time it was filed (such being January 30, 2009) the court decision
remained unknown to the defense; it was apparently not received until some time
after the motion had been filed and certainly after it had been drafted.
Furthermore, at most important here is the fact that the court itself advised both
the defense and the prosecution that it would issue

a decision on February 13,

2009, which was a full two weeks after defense counsel submitted its motion to re­
open. Put another way, defense counsel submitted the motion to re-open a full two
weeks before the Judge said he would issue his decision on suppression. Which

21.

would have given the court more than ample time to re-open the hearing and still
render a decision by February 13, 2009. Instead, the Judge jumps ship and renders a
decision on suppression without either lawyer submitting a Memorandum of law, two
weeks before he said he would render one, and then has the temerity to question the
defendant as to why he didn't bring the motion sooner! In short, this case is not a
case in which there was an inordinate delay in bringing the motion, or in which
granting the motion would have "in any way" delayed the trial. It was, by
consideration of its timing, not only untimely, but was filed at the earliest
possible opportunity.
Timeliness of the motion aside, it must be noted that the defendant's
Constitutional right to counsel claim was uncontested by the prosecutor. The
prosecutor did not include in his response an allegation - even one made on
information and belief

that the defendant had not been Mirandized by Elmira

police, or that if he had, that he waived his rights. Instead he implied that the
claim was specious by virtue of his timeliness challenge. Thus, all that was before
the court at the time it made its decision on the motion was the uncontroverted
allegation that there had been an invocation of the right to counsel by the
defendant, an allegation that on the facts then known to the court as revealed at
. the hearing would necessarily have resulted in suppression of the statement made to
the Rochester Investigators, see People v. Rodgers, 48 N.Y.2d 167 (1979); People v.
Zjacome, 123 A.D.2d 358 (2nd. Dept. 1986). app denied, 69 N.Y.2d 881 (1987).
The defendant's application was not altogether dissimilar to that which was
reviewed by the fourth Department in 2005 in, People v. Smith, 24 A.D.3d 1286, lv
denied, 6 N.Y.3d 838 (2006). In that case, the defendant challenged the decision of
the trial court to permit the people's request to re-open the Huntly hearing to
(

■

address the defendant's contention made for the first time (at the initial hearing)

22.

that he invoked his Miranda rights. The 4th Dept, citing to People v. Hernandez, 124
A.D.2d 893 (3rd Dept. 1986), found that it had been proper to grant the people's
motion to re-open the suppression hearing. It would seem then, that if it was proper
for the people to re-open upon such a claim, when the defendant makes such a claim,
he to should also be permitted to demonstrate his claim.
v

In this instance, the defendant did indeed demonstrate his entitlement to re­
open the suppression hearing. That being the case, it is submitted that it was an
abuse of Judicial power and discretion for the suppression court to deny defendant's
motion. It is very likely that defendant would have been successful had his notion
to re-open been granted. It is undisputed that defendant Invoked his right to
counsel with the Elmira Police and with the Rochester Investigators, which was never
opposed by the prosecution. The prosecution opposed on the ground that the motion
to re-open was untimely. As such, the defendant's conviction should be reversed and
remanded for further proceedings, or in the alternative, it should be remitted for a
hearing to expose the entirety of the factual circumstances surrounding his arrest
and the taking of his oral and written statements on November 20, 2007. In the
absence of such relief, the defendant's due process rights have been violated, as
has his right to a fair trial insofar as the trial necessarily contained evidence
that may have been obtained upon the heels of a Constitutional violation.

POINT III
DEFENDANT'S FIFTH AMENDMENT CONSTITUTIONAL
RIGHTS WERE VIOLATED WHEN THE COURT
ALLOWED
THE
PROSECUTION
TO
ADMIT
DEFENDANT'S COMPELLED GRAND JURY TESTIMONY
IN THEIR CASE IN CHIEF, WHEN A COOPERATION
AGREEMENT EXPRESSLY STATED THAT HIS GRAND
JURY TESTIMONY WOULD NOT BE USED IN THE
PEOPLE'S DIRECT CASE.

23.

Following his December 4, -2007 arrest, the defendant (then represented by
counsel. other than he" who' represented him post-indictment), entered into a
cooperation agreement with the people. By the-terms of that agreement, in exchange
for his cooperation against William Miller and Robert Brewer relative to the
homicide, the defendant was to be permitted to enter a guilty plea to a single
charge of Attempted First degree Robbery and it was recommended by the people that
he was to receive a determinate sentence of Five (5) years. The agreement had been
executed not only by the defendant and his then attorney (Mr.' LaDucca) but also by
the same Assistant District Attorney (Christopher Rodeman, esq.) who eventually
would prosecute the case at the trial level. That being the case, it cannot be
reasonably argued that ADA Rodeman did not have knowledge of the provisions of
v that contract.
In furtherance of the agreement, the defendant provided testimony before the
Monroe County Grand Jury as a prosecution witness and was compelled to waive
immunity, which was not part of the contract terms, nor was defendant made aware
that he would have to relinquish immunity prior to entering the Grand Jury room as
a prosecution witness. Less than two weeks later, on December 26, 2007, the
defendant was charged with misdemeanor
some two months later

promoting

on February 28,

2008

prison contraband and,
entered into a negotiated

disposition whereby he entered ’a plea to that charge while being represented by a
different attorney and received a time-served sentence. This disposition was
entered into by the defendant in apparent unawareness of the consequences it would
have - that is that the Cooperation Agreement would thereby be considered
violated.
;

Included in the express provisions of the agreement was one concerning what

use could be made of the defendant's cooperation-furthering statement(s) shbuld
the agreement be terminated. Specifically, the agreement provided that: [l]t is

24. ■

agreed that statements made by defendant during the pendency of this agreement,
regarding the crime, specified

above will not be used in the people's direct case

in that. prosecution..,. See -Appendix F, Pg. 33A, 11 8a. By- this express provision,
it -is clear that in .the event the Cooperation 'agreement was terminated . - as
ultimately was , to be ■ the. case.- any-statements made in furtherance of the
agreement could not be introduced during the people's direct, case, but only, for
purposes of Impeachment and/or rebuttal. This was not, however,' how the prosecutor1
represented ,the matter of the admissibility . of. the--defendant's Grand Jury
testimony to the court when the subject of admissibility, was challenged. in
anticipation of the trial by defense counsel. In fact, representing that he had
"seen case-law" [whereby] it's very common to admit defendant's Grand Jury
testimony. The prosecutor articulated to the court that defendant has "signed a
contract that was very clear - that information could be used against him at some
future point in time'! and that the testimony could "come in as an admission" being
that it "was sworn testimony under oath". Even if not intentionally deceptive
(which is certainly not conceded herein) ADA Rodeman's representation to the court
was a blatant and purposeful mis-statement of the > controlling provision of -the
Cooperation agreement into which he, as the people's representative, had himself
entered. ,

\' <

It should be noted that although it may be "common" for a prosecutor to
admit a defendant's "under oath testimony"• ) however, doing so in this case was
prejudicial inasmuch as the terms the prosecution "also entered into" expressly
stated that defendant's statement(s). would not be used in the people's direct case
in chief" irrespective of what "case-law" ADA Rodeman happened to see. There is
absolutely no exceptions stated.anywhere .in ;the contract.to the contrary (Emphasis
Added). Moreover,, defendant did not-testify under his own volition, he was

25.

compelled to testify (as a prosecution, witness) in order to receive a favorable
sentence of five (5) years, and therefore was also forced to abandon his
Constitutional Fifth Amendment right, and waive Inmunity during his Grand Jury
testimony for fear of not abiding by the express terms of the cooperation
agreement and ultimately receive the promised Five (5) year sentence. Defendant in
this case was truthful at the Grand jury and served as an important role in the
prosecution of his co-defendarits.. It was only after he pled guilty to another
charge, totally unrelated to the homicide that the prosecutor "Flipped the Script"
of the Cooperation agreement and began to mis-represent the terms of the
agreement, and engage in deceptive tactics with his own contract agreement and
erroneously convinced the trial court that he could use-anything defendant said ■ during his grand jury testimony in the prosecutions case-in-chief against the
defendant at his own trial.
Beings in the nature of a contract (see United States v. Castelbuono; 643 F
Supp 965. [EDNY 1986], the terms ofi a cooperation agreement such as was employed
here in this case are to be given their plain meaning, see People v. Rich, 166
A.D.2d 615 (2nd dept. .1990), app w* drawn & denied, 77 N.Y.2d 999 (1991), see also
People v. Stokes, 165 Misc2d 934 (Monroe Co. Ct. 1995). Here the plain meaning of
the above-quoted language of the cooperation agreement provides

that upon

termination thereof, use of any statements .made in furtherance of the agreement
are to be limited to impeachment or rebuttal and cannot be used in the people's
direct case.
Irrespective of whether the prosecutor's mis-representation to the trial
court regarding the terms of the agreement-is characterized as an inadvertent or
as an intentional misrepresentation - the latter having been the basis for the
Fourth Departments disciplinary action against the same prosecutor stemming from
his conduct in a separate matter (see Matter of Rodemen, 65 A.D.3d 350 [4th dept.

26.

2009]) - the result is the same, the defendant • was prejudiced, his Grand Jury
Testimony having been introduced as an integral element of the people's direct
case in contravention of the. express terms of the agreement- On that basis alone,
the defendant's conviction must be reversed as having been entered on the basis of
a Due Process violation and possibly even as a result of purposeful prosecutorial
misconduct.
Furthermore, even'in the absence of.what could have been the prosecutor's
intentional- misrepresentation about the cooperation1 agreement, it is ' submitted
that in the interest of ensuring the defendant's right to a fair trial, the trial
court itself had a Judicial obligation and duty to scrutinize the agreement. The
agreement was before the court, having been supplied to the court in its entirety
by the prosecutor during the course of the defendant's motion to dismiss the
indictment. In order to discharge its obligation to ensure the fairness of this
prosecution and the'proper administration of Justice (see People v. Gonzales, 38
N.Y.2d 208, 210 [1975]; see also US Const. Amend. XIV; Code of Judicial Conduct
Cannon 3 [A]) , it-is submitted that .'the trial court was-required to review the
predicate dqcument ’already before it-i(i.e., Cooperation-agreement). 'Had it done
so, such review would have..revealed the pivotal .‘item'-of evidence that would
otherwise

have

been

precluded, at least in the People's direct case. On the

Basis too, then, the-defendant's conviction must be reversed, and a new trial
ordered.
It should also be noted by this court that Paragraphs 8a & 8b of the
Cooperation agreement hopelessly conflict with each other, are' ambiguous and
furthermore contradict one. another. See Appendix F, Pg. 33A fi's 8a & 8b. The
language in Paragraph 8a confers USE Immunity,

(i.e., "it is agreed,

that

statements made by the defendant during the pendency of this agreement, regarding
the.crime specified' above-will not7 be, used. against him on the people's case-in­
chief in that prosecution.") To secure a defendant's cooperation • • • [t]he
27.

government

may

"informally"

grant him use

immunity

in

exchange

for his

cooperation. That is what took place in this case. The prosecution "agreed" that
any statements made by him during the pendency of the agreement would not be used
against him in the prosecutions case-in-chief. This statement is a perfect example
of "use immunity".

Because of this informal grant of use immunity in the

ir

cooperation agreement, it influenced the defendant to testify against his co­
defendants as a witness for the prosecution without having to be concerned about
-his statements being used against him. However, when defendant entered the grand
jury room he was told that he had to waive immunity and after doing so, was not
advised of his Fifth Amendment rights to remain silent, and that anything he
stated could and would be used against him in the prosecutions case-in-chief, but
even if he was advised of his Fifth Amendment privilege, it would not have
mattered inasmuch as the cooperation agreement also stated that defendant's
"failure to testify" would result in defendant being prosecuted for "any State or
Federal, crimes encompassed by [the], agreement". With this being the case, the
defendant testified involuntarily and under compulsion. Defendant was not allowed
to freely. exercise his Fifth Amendment privilege out of fear of the prosecutor
claiming he was in violation of the terms of the agreement (i.e., refusing to
answer questions and/or incriminating himself), and as a result of that, not
getting the benefit of the plea bargain, (i.e., Five (5) year determinate term).
The prosecution should not be free to build up a criminal case, in whole, or in
part, with the assistance of enforced [or compelled] disclosures by the accused,
see Ullman v. United States, 350 US 422.
,

When the prosecutor compelled defendant to waive immunity and did not advise

him that anything he stated to the Grand Jury could and would bemused against him
in the people's case-in-chief ( because it would be considered "an admission,
under oath".) The prosecutor was not only violating his own terms of the

28.

i,

agreement, but was also eroding the fundamental guarantee of Due Process under the
Constitution. The prosecutor impermissibly used • deceptive tactics to induce
defendant's testimony which also seems-ostensibly, to be a common practice for
this rogue prosecutor. In 2009 regarding the Matter of Christopher Rodemen, the
Fourth Judicial department censored the prosecutor for, inter alia, Dishonesty;
Fraud; Deciet, and/or Misrepresentation, engaging in conduct that is prejudicial
to the administration of Justice Please see Appendix G. It is quite ironic that
what the Fourth Department found this rogue prosecutor liable for in 2009, were
the same things he demonstrated in this case with defendant in 2007-08. (Emphasis
Added), and shows that this prosecutor indeed has the propensity to be unfair and
deceitful, among other things.
The Grand jury inquiry where the defendant appeared for the prosecution,
ostensibly became an investigation directed against defendant and was pursued with
the purpose of compelling him to give self-incriminating testimony upon which to
indict and convict him. There would be no other reason for this prosecutor to
force defendant to waive immunity in contravention of the Cooperation agreement,
• ;•

which previously stated that his statements would not be used against him. At the
outset of the Grand Jury inquiry defendant was under the assumption that even
though he waive immunity, the terms of the agreement were still in effect whereby
his statements could not be used against him. The defendant was not warned by the
prosecutor before giving testimony that, because he waived immunity, the terms of
the agreement were no longer in effect. It is therefore submitted that Due process
requires that the government adhere to the terms of any plea bargain or "use"
immunity agreement it makes, see Mabry v. Johnson, 467 US 504, 509; 104 S.ct 2543,
2547 ; 8 L.Ed.2d 437 (1984); Santobello v. New York, 404 US 257, 262; 92 S.ct 495,
499; 30 L.£.d.2d 427 (1971) ("when a plea rests in any significant degree on a
promise or agreement of the prosecutor, so that it can be said to be part of the

29.

inducement or consideration

such promise must be fulfilled) United States v.

(jerry) Harvey, 869 F.2d 1439, 1443-44 (11th cir. 1989); Innes v. Dalsheim, 864
F.2d 974 (2nd Cor. 1988), cert denied.
It is further submitted that the deliberate use at-trial of defendant's
Grand Jury testimony in violation of the' prosecutor's express terms to the
contrary violates Due process, see e.g., Santobello, 404 US at 262, and contrary
to previous decisions- .by the 2nd Circuit: court of appeals and the Fourth
Department) cannot not be considered harmless error; cf. Gallo, 859 F.2d at 108284.
Finally, it must also be noted by this court that details of defendant's
Federal Habeas Corpus motion to the Western District of New York and its appeal to
the Second Circuit court of appeals were inadvertently omitted from the statement
of the case, however, although they were omitted, the decisions in those case are,
in part, what brings this case into conflict with at least Five (5) other circuit
courts.

. POINT IV
BOTH DECISIONS OF THE FOURTH DEPARTMENT
APPELLATE DIVISION, THE WESTERN DISTRICT
COURT OF NEW YORK, AND THE SECOND CIRCUIT
COURT OF APPEALS REGARDING THE COOPERATION
AGREEMENT ARE IN CONFLICT WITH AT LEAST
FIVE CIRCUIT COURTS INCLUDING THE EIGHTH
CIRCUIT COURT OF APPEALS.
/

First,

the Western District of New York held,

in part; that because

defendant's attorney terminated the cooperation agreement and the district
attorney declined to reinstate it after defendant failed a polygraph test, that
the cooperation agreement was no longer in effect, and that the "only agreement"
in effect at the time of trial was the waiver of immunity, which allowed the
prosecution to use [defendant's] Grand jury testimony in it's direct case. This

30.

holding completely disregards the express terms of the cooperation agreement, in
that, the agreement specifically stated that:* "[i]t is agreed that statements made
by the defendant during the pendency of this agreement,' regarding the crime
specified above will not be used against him on the people’s case-in-chief, the
agreement also states,, in part, that M[A]lthough the statements may not be used in
the governments

case-in-chief in that

prosecution,

they may be used for

impeachment purposes and for rebuttal". It is submitted that the terms of the
agreement did .not require the agreement , to be "in effect" for the D.A not to use
his statements.
The Second Circuit held, in part,

that defendant raises no colorable

argument that the Grand Jury testimony should have also been suppressed, or that *
he would not have testified before the Grand Jury had the statement been
suppressed. It is submitted that defendant did not move to suppress the Grand Jury
testimony because of the express terms of the agreement that specifically stated
that his statements would not be used against him in the prosecutions direct case.
Specifically, the decision in defendant's case conflicts with United States
v. Brown, 801 F.2d 352 (1986) - Eighth Cir. Court of Appeals.

The cooperation

agreement in Brown is analogous to the agreement in defendant's case, in that,
statements made "in reliance upon the agreement" will not be used against Brown
except in a prosecution for perjury or false statements, and that the United
^

'

*

*

’

.-(*

■

■

States will not be bound by the agreement should the defendant "commit any further
crimes" See Brown, Supra. The Eastern District Court of Arkansas dismissed the
indictment on the bases that the Government received the benefits of Browns
cooperation pursuant to

the agreement, and because of that, the government could

not prosecute him and dismissed the indictment. On appeal to the Eighth Circuit
court of appeals,

that court held that a cooperation-immunity agreement is

contractual in nature and subject to contract law standards • • • The language of the

31.

contract is to be,read as a whole and given reasonable interpretation, not an
interpretation that would produce absurd results. United State v. Irvine, 756 F.2d
708, 710 (9th Cir. 1985) (Per Curiam) (citations omitted), accord, United States
v. Baldacchino, 762 F.2d 170, 179 (1st Cir. 1985); United States v. Carillo, 709
F.2d 35, 36 (9th Cir. 1983); United States v. Calabrese, 645 F.2d 1379, 1390 (10th
Cir.), cert denied, 454 US 831. Cooperation agreements are analogous to plea
agreement. See

Carrillo, Supra; cf. Santobello v. New York, 404 US 257, 262, 92

S.ct 495, 498-99, 30 L.E.d.2d 427 (1971) (Plea Bargain) United States v. Garcia,
519 F.2d 1343, 1345 (9th Cir. 1975) (deferred Prosecution agreement) "it is clear
that a defendant's failure to fulfill the terms of a pretrial agreement relieves
the government of its reciprocal obligations under the agreement. United States v.
Calabrese, Supra.
Although the Eighth Circuit held that the District Court erred in deciding
that "as a matter of Law" the cooperation agreement was enforceable, against the
government - even though Brown breached the agreement... [r]equiring Broen not to
commit further crimes... [a]nd -to, "fully cooperate" by truthfully disclosing any
knowledge or information..., however,, .this is not where

the

conflict lies. The

conflict is that even though the Court of appeals reversed this case in favor of
the government because of Browns• breach .which relieved the .government; of.- its
reciprocal obligations. The Eighth Circuit also held that, the case must, be
remanded inasmuch as the question of,Browns breach was not an issue to be finally
determined "unilaterally" by the government, United States v. Calsbrese, Supra.
Because Brown raised a factual dispute on the issue, of breach (as Defendant also
does), on remand the,District Court .was ordered;to hold an evidentiary hearing and
determine whether Brown breached the agreement. [Tjhe government has the burden of
establishing a breach by the defendant, if the,., agreement, is to be .considered
unenforceable.

32

'

This is precisely what did not happen- in defendant'* s case. The cooperation

agreement -was-■ before* the 'trial court Judge during defendant's motion to’-dismiss
the--indictment and the judge, ostensibly, never reviewed or scrutinized the
agreement, instead -the* Judge-"adopted” the prosecutor's interpretation of it's
terms-and-allowed*defendant's -Grand* jury-- testimony iat 'trial'-in ‘the people's •casein-chief.

Inasmuch

as-

the

trial

court • Judge- adopted

the

prosecutor'-s

interpretation, he . was "fundamentally Fallowing*- the '-prosecutor - to unilaterally
determine -wha-t: could • and could .- not be' ■ used - at > trial.- -This'-was errors on a
Constitutional level and implicated defendant'-s Due Process right under- the
Fourteenth Amendment. The court itself "as a matter of law” and in accordance with
US v. Brown, Supra was required to determine whether or not defendant's statements
could be used against him at trial. Moreover, inasmuch as the defendant raised a
factual-dispute regarding the terms of the agreement both in his direct Appeal and
even more so in his 440.10 motion to vacate his conviction and its appeal, the
courts were required-to remand-his case for a hearing to'-determine the question of
defendant's breach of the agreement, and they did not!.
- The Seventh Circuit, U.S v. Ataya, 864 F.2d 1324; The Fourth Circuit, U.S v.
Sinmons, 537 F.2d 1260; The Tenth Circuit, U.S v. Calbrease, Supra; The Eleventh
Circuit, U.S v. Woods, 780 F.-2d 929; The Second*Circuit, U.S v. Pelletier,' 898
F.2d 297, quoting, Mabry v. .Johnson,-*,467 -U.S 504, 509. All agree that a requisite
safeguard of defendant's Due Process- rights- ‘requires a1 Judicial determination,
based on adeqUate*-evidence-of a defendant* s-breach-of a--plea Bargaining agreement
and that, the question of a defendant' s-breach is not an issue -to be determined
unilaterally by the government (Emphasis Added) Furthermore, Due Process

also

requires -the government to adhete to the terms of any immunity' agreement- it makes,
and in- the absence of a finding of substantial breach on -the part of defendant,
the government must fulfill its obligations under the agreement, see

33.

US v. Ataya, 864 F.2d at 1330. Contrary to the holding in defendants case, the
' Second Circuit itself in U.S v. Pelletier, Supra held: "[H]aving granted • * •
Immunity and having further limited itself to using [defendant's] • • • testimony
against [him] only in the event [defendant] intentionally lied, and even then only
in a prosecution for perjury, the government was not free to use that testimony
either to indict or to obtain a conviction on nonperjury charges".
Because the reasoning of Pelletier strikes the court as "sound", it believed
that its holding should be followed, and according to contract principles, [the
court] must limit the government to the remedies which they consented to in the
agreement. Although there [was] "case-law" that suggest[s] that an immunity
agreement is void upon the defendant's breach, the courts have so held only where
the agreement explicitly provided that any falsehood would void the agreement.
Pelletier, 898 F.2d at 302; United States v. Skalsky, 857 F.2d 172 (3rd Cir.
1988); Castelbuono, 643 F.Supp at 969, or where the agreement was silent as to the
remedies ( as was defendant's agreement), United States v. Readon, 787 F.2d 512,
515-16 (10th Cir. 1986), plea agreement silent.
Defendant's case further conflicts because even though the Eighth Circuit
ruled in favor of the government, that the agreement was enforceable as a matter
of law, and because of Browns breach for committing future crimes, and that he
could be prosecuted for the 1983 offense, however, the court also held,

that

in

prosecuting that offense, the government may not use any information obtained
directly or indirectly, from Brown as a result of the Cooperation agreement. See
Brown, Supra. This holding directly contradict the Western Districts Holding in
defendant's case.
Defendant in this case does not dispute that the government in his case
could have prosecuted him because of his breach, however, the prosecution was not
allowed to use his Grand Jury Testimony and was only allowed to use evidence from

34.

a legitimate source wholly independent of his compelled’ testimony, Kastigar1 v.
United States, 406 US 441, 448-63, '92 S.ct:1653; 1658-65, 32 L.E.d.2d 212 (1972). It
is 'anticipated that the government when opposing this petition will claim that the
prosecutor in this case used evidence wholly Independent of the
testimony (i.e.,

Kentrell/ Burks'

statements to police).

testimony,

Grand Jury

and defendant's1 oral and written

It is submitted that although the prosecutor did have

independent sources for "some" of the evidence used at trial, the prosecutor also
made direct use of defendant's Grand Jury testimony. The government can not escape
its error simply by showing the availability of "wholly Independent" evidence from
which might have procured indictment or conviction had it not used the immunized
testimony (and can not be considered Harmless Error), see e.g., United States v.
Gallo, 859 F.2d 1078, 1082-83 (2d, Cir, 1988) (dissenting, judge and one other
member of Majority find per se violation of’Fifth Amendment and use immunity statute
where' prosecution made direct use of one paragraph of defendant's immunized
testimony...) see also dissenting opinion1 in U.S v. Brown, 801 F.2d 352.

POINT V
I

THE
NUMEROUS
FAILURES
BY
DEFENSE
COUNSEL* S
REPRESENTATION
INCLUDING
HIS
FAILURE
TO
INVESTIGATE
THE
CIRCUMSTANCES
SURROUNDING
DEFENDANT'S ARREST, HIS ■ FAILURE TO SUBMIT A
SUPPRESSION MOTION WITH "ALL" THE FACTS, AND HIS
FAILURE TO INVOKE THE EXPRESS PROVISION OF THE
COOPERATION AGREEMENT PRECLUDING THE USE OF ANY
STATEMENTS.MADE DURING THE PENDENCY OF IT AT TRIAL
DENIED DEFENDANT THE EFFECTIVE ASSISTANCE OF
COUNSEL GUARANTEED BY THE SIXTH AMENDMENT OF THE
UNITED STATES CONSTITUTION.

A defendant is guaranteed, by virtue of both the United' States and the State
Constitutions, his right to the effective assistance of counsel, US Const. Amend. VI
& XIV; NY Const. Art. 1 § 6; See United states v. Glasser. 315 US 60, 69-70.

35.

(1942); Avery v. Alabama, 308 US 444 (194); Powell v. Alabama, 287 US 45, 57 (1932);
People v. Silverman, 3 NY2d 200 (1957). As the New York State court of Appeals has
stated:

[T]rial tactics terminated unsuccessfully do not automatically indicate

Ineffectiveness. So long as the evidence, the Law, and the circumstances of a
particular case, viewed in totality and as of the time of the representation, reveal
that the Attorney provided meaningful representation, the Constitutional requirement
will be met." People v. Baldi, 54 NY2d 137, 145-147 (1981); see also People v.
Henry, 95 NY2d 563, 565 (2000), see also Strickland v. Washington, 466 US 668
(1984). Thus, to prevail upon a claim that defendant has been denied effective
assistance of counsel, he must demonstrate that he was deprived of a fair trial by
less than meaningful representation. See People v. Hobot, 84 NY2d 1021, 1022 (1995);
People v. Flores, 84 NY2d 184, 186 (1994). A defendant must demonstrate the absence
of objectively reasonable trial strategy or other legitimate explanations for
counsel's failure(s), see People v. Benevento, 91 NY2d 709, 712-713 (1998); People
v. Rivera, 71 NY2d 705, 709 (1988). Where the perceived strategy falls "short of an
objective standard of reasonableness", the defendant has been found to have been
denied the effective assistance of counsel as well as a fair trial. See People v.
Wlasiuk

AD3d

WL 6820985 (qouting People v. Turner, 5 NY3d 476, 485, citing

People v. Rivera, 45 AD3d 1249, 1251. There is no requirement that counsel's
representation be error-free. Rather,

the "focus is on the fairness of the

proceeding as a whole", see People v. Hairy, 95 NY2d at 565-66;

see also Harris by

and through Ramseyer v. Wood, 64 F.3d 1432, 1439 (9th Cir. 1995) (Cumulative
deficiencies may result in Sixth Amendment Violation) Thus, neither will isolated
errors or losing tactics generally rise to the level of ineffectiveness... unless
the error is "so serious that [the] defendant did not receive a fair trial. See
Henry, 95 NY2d at 565-566 (quoting People .v Flores, 84 NY2d at 188-189; see also
People v. Rivera, 71 NY2d at 708. Here the deficiencies and error's in counsel's

36.

representation were not isolated; indeed, there were several instances in which the
ineffectiveness of counsel*s representation are ’ immediately apparent: (1) Counsel'
failed to investigate the circumstances surrounding the defendant's arrest in 2009,
and thereby failed to learn that defendant invoked his right to counsel, so as to
make that part of his suppression motion, (2) Counsel further failed to explicitly
invoke the provision of the cooperation agreement at trial precluding the use of his
statements made during the pendency of the agreement. Instead, counsel objected to
it's use on the basis that it would unlawfully bolster defendant's written statement
made to police at Rochester headquarters. By only objecting on this basis, it
further denied defendant preservation of raising the legality of the prosecution
using his statements in the prosecutions case-in-chief on direct appeal. See
Appendix A, P.g. 41A. Defense counsel also failed to move to suppress the defendants
written statement to Rochester Police on the ground that there was no probable cause
for his arrest, then after learning at the suppression hearing there was no warrant
for defendant's arrest, counsel remained oblivious to the circumstances and failed
to verbally move for suppression based on this fact.
It is more than obvious, in this case, that defense counsel did not have any
conversations with defendant, or in any way investigated this case before he drafted
his suppression motion. Three basic facts of this case were that defendant invoked
his right to counsel after being apprehended and threatened by Elmira police,
defendant again invoked his right to counsel after Rochester police took over
custody of him, and that defendant incriminated himself in a written statement after
police made a promise to him that he could go home if he told the truth. Three basic
facts of the case. If counsel had met with defendant, he would have learned this. In
counsel's

suppression motion he states

that defendant's

statements were not

voluntary, but fails to support this allegation. Any reasonable person would

37.

conceive that counsel would at least support this allegation with the fact that
police made a promise to defendant to compel him to incriminate himself, or he would
support his allegation of involuntariness with the fact that defendant invoked his
right to counsel, but counsel doesn't support this allegation with anything. Counsel
also states that defendant was not properly advised of his rights, and the best one
yet, that defendant lacked the capacity to understand his rights, but also fails to
’

.

.

\

’

support this allegation with anything, not even that defendant may have been under
the influence of narcotics, or that he was intoxicated. Counsel made bare naked
allegations with absolutely nothing to support them with. Defense counsel further
did not make any argument in his suppression motion regarding defendant invoking his
right to counsel, or that defendant was compelled to make incriminating statements
against himself because of a promise from police that he would be able to go home if
he told the truth. It is so obvious that counsel "winged" his suppression motion.
The original suppression motion did not reflect anything that actually took place
during defendant's arrest, which is clear evidence that counsel did not investigate
the facts and circumstances of the case. The fact that defendant did invoke his
right to counsel not once, but twice, and counsel's failure to properly raise and
then challenge that in a suppression motion extremely prejudiced the defendant
because, had counsel properly raised this and effectively challenged it, it was
likely that defendant would have been successful in the suppression of his
statements to police which would have certainly changed the outcome of this case. It
can not be reasonably argued that defendant received "meaningful representation" in
this case.
Under the both the Federal and State standards for the Constitutional
effective assistance "of counsel,

it is ‘possible for even a single error to

constitute performance that "is so 'egregious and prejudicial'

as' to deprive a

defendant of his Constitutional right." People v. Turner, 5 NY3d at 480, citing

38.

Y><

People v. Caban, 5 N.Y.3d 143, and Murray v. Carrier, 477 US 478, 496 (1986), a
failure to conduct a reasonable Investigation may, by itself, constitute Ineffective
Assistance of Counsel. "It is elementary that the right to effective representation
includes the right to assistance by an attorney who has taken the time to review and
prepare both the law and the facts relevant to the defense." see People v. Droz, 39
NY2d 457, 462 (1976); People v. Bennett, 29 NY2d 462, 466 (1972).
In Strickland v. Washington, the Supreme court specifically addressed an
Attorney's duty to Investigate stating that:
[S]trategic choices made after through Investigation of law
and facts relevant to plausible options are virtually
unchallengeable; and strategic choices made after less than
complete investigation are reasonable precisely to the
extent that reasonable professional judgments support the
limitations on investigations. In other words, counsel has
a duty to make reasonable investigations or to make a
reasonable decision that make particular investigations
unnecessary. In any .ineffectiveness case, a particular
decision not to investigate must be directly assessed for
reasonableness in all the circumstances, applying a heavy
measure of deference to counsel's judgments, Strickland.
466 US at 690-91.

Building upon Strickland, the Supreme Court has emphasized that the duty to
investigate is essential to the adversarial testing process "because the testing
process generally will not function properly unless defense counsel has done some
investigation into the prosecution's case and into various defense strategies."
•

.

•

-

■*

'

\

Kimmelman v. Morrison, 477 US 365, 384 (1986). The duty requires counsel to make
reasonable investigations or to make a reasonable decision that make particular
investigations unnecessary, se Greiner v. Wells, 417 F.3d 305, 320-21 (2d. dr.
2005) cert denied, 546 US 1184 (2006); Lindstadt v. Keane, 239 F.3d 191, 200-02 (2d.
Cir.

2001);

People v.

Kurkowski,

117 A.D.3d 1442,

1443 (2014)

(Failure to

investigate may constitute Ineffective Assistance Of Counsel) see also People v.

39-

Rossborough, 122 A.D.3d 1244, 1245 (2014); People v. Jenkins, 84 A.D.3d 1403, 1408
(2011).
Similarly, the single error of failing to raise or adequately pursue viable
suppression claims may, by itself, constitute Ineffective Assistance of Counsel, see
generally People v. Rivera, 71 N.Y.2d 705, 709 (1988). (where the defendant is able
to demonstrate an absence of a strategic or other legitimate reason for the failure
to

advance

a

suppression

claim,

Ineffective

Assistance

Of

.Counsel

is

demonstratable); People v. Miller, 11 A.D.3d 729, 730 (2004) (Failure to move for
Huntly Hearing.
There is little question that defendant's Sixth & Fourteenth Amendments were
violated due to Defense Counsel's severe lack of unawareness of the facts &
circumstances surrounding this case. Defendant's Fifth Amendment rights were also
severely violated regarding his testimony before the Grand Jury, and it is the duty
of this court to supply the jurisprudential foundation necessary to ensure Fifth
Amendment values are adequately preserved when threatened in the context of a
putative defendant called by a prosecutor and Interrogated before a Grand jury
concerning personal acts for which the prosecution plans his criminal indictment [or
conviction].

This court has consistently emphasized and, more importantly, has

stood fast to ensure the essential premise Underlying our entire system of criminal
justice that "ours is an accusatorial and not an inquisitorial system, a system in
which the state must establish guilt by evidence Independently and freely secured
and may not by coercion prove its charge against an accused out of his own mouth",
Rodgers v. Richmond, 305 US 534, 541.
Based on the questions presented in this case and for all the reasons
articulated in this petition. Defendant prays that a Writ of Certiorari will be
granted. Thank You.

40.

